WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No 19-1112

Stephanie Jones

Jeremy Eder, J. Dale, B. Baker, et al

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Counsel of Record for all respondents.
[1] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Jeremy Eder and Raymond Ng

J

I am a member of the Bar of the Supreme Court of the United States.

ri I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature /1Date.

03/09/2020

William S. Helfand
F Mr. E Ms. E Mrs. E
Lewis Brisbois Bisgaard & Smith, LLP
Firm

(Type or print) Name

Address

Miss

24 Greenway Plaza, Suite 1400

City Si State

Houston, Texas

Phone (713)

659-6767

Zip
Email

77046

bill.helfand@lewisbrisbois.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: William Pieratt Demond

